HHS/OIG-Audit--"Allocation of Title IV-E Training Costs-Illinois Dept of Children & Family Services,"(A-05-96-00013)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Allocation of Title IV-E Training Costs - Illinois Department of Children
and Family Services," (A-05-96-00013)
August 20, 1996
Complete Text of Report is available in PDF format (195
kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the allocation of training
costs claimed by the Illinois Department of Children and Family Services (State
agency) under the Title IV-E Foster Care and Adoption Assistance programs. The
audit objective was to determine whether the State agency properly allocated
joint training costs between Title IV-E and other benefiting programs.
The State agency provides or contracts for various types of training for its
employees, foster and adoptive parents, and other providers of foster care.
Although this training also benefitted other State programs, the State agency
charged the costs entirely to Title IV-E. As a result, the Department of Health
and Human Services (HHS), Division of Cost Allocation (DCA), disapproved the
State agency's cost allocation plan.
When we commenced our audit of Title IV-E training costs, the allocation of
these costs was the subject of an appeal to the HHS Departmental Appeals Board
(DAB) . Because of the appeal, we excluded the allocation issue from our prior
report on Title IV-E training costs (CIN: A-05-95-00022, dated February 29,
1996) which covered the other areas of our review. In its decision on the appeal
issue, the DAB concluded that the joint training costs should be allocated to
all benefiting programs. Based on the DAB's decision, we computed the overcharges
to Title IV-E and are summarizing the results of our review in this separate
report.
The State agency had not allocated joint training costs to all of the benefiting
programs. We re-allocated these costs to all benefiting programs and determined
that $8,283,904 (Federal share - $5,812,360) was improperly claimed during the
period January 1, 1992 through December 31, 1994.
We are recommending that the State agency:
make a financial adjustment of $8,283,904 (Federal share $5,812,360) to
the Title IV-E program, and
develop and implement a cost allocation plan for distributing training costs
to all benefiting programs.
In its written response to our draft report, the State agency concurred that
an allocation factor, based on Title IV-E eligibility ratios, should be applied
to joint training costs. However, it did not agree that the computed adjustment
should be retroactive to January 1, 1992. The effective date that the costs
were required to be allocated to all benefiting programs is the subject of an
appeal between the State and the Administration for Children and Families (ACF).
The State agency is working with DCA to obtain an approved cost allocation plan
for distributing future training costs to all benefiting programs.